No. _________
IN THE SUPREME COURT OF THE UNITED STATES

ROBERTO GONZALEZ-GATICA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10643
Summary Calendar

FILED
February 20, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
ROBERTO GONZALEZ-GATICA, also known as Pedro Garcia-Gonzalez,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CR-213-1
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *
Roberto Gonzalez-Gatica appeals the 45-month, below-guidelines
sentence imposed following his guilty plea for illegal reentry after removal
from the United States. He contends that his sentence is unconstitutional
because his indictment alleged only those facts sufficient for a conviction under
§ 1326(a) and did not include any allegations of a prior conviction necessary for
a sentence enhancement under § 1326(b)(2). Relatedly, he asserts that his

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10643
guilty plea was involuntary and that the district court violated Federal Rule of
Criminal Procedure 11(c)(1) because it did not admonish him that the fact of a
prior conviction is an essential element of the offense. Thus, Gonzalez-Gatica
argues that the district court erred in sentencing him to a term of
imprisonment greater than the two-year maximum under § 1326(a).

He

concedes that this argument is foreclosed by Almendarez-Torres v. United
States, 523 U.S. 224, 226-27 (1998), but seeks to preserve the issue for further
review. The Government filed an unopposed motion for summary affirmance,
agreeing that the issue is foreclosed, and in the alternative, a motion for an
extension of time to file a brief.
In Almendarez-Torres, 523 U.S. at 239-47, the Supreme Court held that,
for purposes of a statutory sentencing enhancement, a prior conviction is not a
fact that must be alleged in the indictment or found by a jury beyond a
reasonable doubt.

This court has held that subsequent Supreme Court

decisions did not overrule Almendarez-Torres. See United States v. Wallace,
759 F.3d 486, 497 (5th Cir. 2014) (considering the effect of Alleyne v. United
States, 570 U.S. 99 (2013)); United States v. Pineda-Arrellano, 492 F.3d 624,
625-26 (5th Cir. 2007) (considering the effect of Apprendi v. New Jersey, 530
U.S. 466 (2000)).

Thus, Gonzalez-Gatica’s argument is foreclosed and

summary affirmance is appropriate. See Groendyke Transp., Inc. v. Davis, 406
F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the judgment of the district court is AFFIRMED.

The

Government’s alternative motion for an extension of time to file a brief is
DENIED as moot.

2

APPENDIX B

Case 3:18-cr-00213-B Document 40 Filed 05/24/19

Page 1 of 7 PageID 100

Case 3:18-cr-00213-B Document 40 Filed 05/24/19

Page 2 of 7 PageID 101

Case 3:18-cr-00213-B Document 40 Filed 05/24/19

Page 3 of 7 PageID 102

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 7

ROBERTO GONZALEZ-GATICA
3: 18-CR-00213-B(l)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: No term of supervised release
imposed.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

D

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4.

D

You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

5.

You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

\ZI
D

7.

D

You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:18-cr-00213-B Document 40 Filed 05/24/19

Page 4 of 7 PageID 103

Case 3:18-cr-00213-B Document 40 Filed 05/24/19

Page 5 of 7 PageID 104

Case 3:18-cr-00213-B Document 40 Filed 05/24/19

Page 6 of 7 PageID 105

Case 3:18-cr-00213-B Document 40 Filed 05/24/19

Page 7 of 7 PageID 106

